     DEPARTMENT OF HEALTH & HUMAN SERVICES                                 OFFICE OF INSPECTOR GENERAL


                                                                            Office of Audit Services, Region IV
                                                                            61 Forsyth Street, S.W., Suite 3T41
                                                                            Atlanta, GA 30303
October 7, 2009

Report Number: A-04-09-06104

Mr. James Elmore, Director
Contract Administration
National Government Services, Inc.
8115 Knue Road
Indianapolis, Indiana 46250

Dear Mr. Elmore:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled “Review of Medicare Outpatient Payments for Oxaliplatin in
West Virginia.” We will forward a copy of this report to the HHS action official noted on the
following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Pursuant to the Freedom of Information Act, 5 U.S.C. § 552, OIG reports generally are made
available to the public to the extent that information in the report is not subject to exemptions in
the Act. Accordingly, this report will be posted on the Internet at http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact Andrew Funtal, Audit Manager, at (404) 562-7762 or through email at
Andrew.Funtal@oig.hhs.gov. Please refer to report number A-04-09-06104 in all
correspondence.

                                              Sincerely,


                                              /Peter J. Barbera/
                                              Regional Inspector General
                                                for Audit Services


Enclosure
Page 2 - James Elmore


Direct Reply to HHS Action Official:

Nanette Foster Reilly, Consortium Administrator
Consortium for Financial Management & Fee for Service Operations
Centers for Medicare & Medicaid Services
601 E. 12th Street, Room 235
Kansas City, Missouri 64106
 Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




REVIEW OF MEDICARE OUTPATIENT
 PAYMENTS FOR OXALIPLATIN IN
        WEST VIRGINIA




                        Daniel R. Levinson
                         Inspector General

                          October 2009
                          A-04-09-06104
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY 


BACKGROUND

Pursuant to Title XVIII of the Social Security Act, the Medicare program provides health
insurance for people age 65 and over and those who are disabled or have permanent kidney
disease. The Centers for Medicare & Medicaid Services, which administers the program,
contracts with fiscal intermediaries to process and pay Medicare Part B claims submitted by
hospital outpatient departments. Medicare uses an outpatient prospective payment system to pay
for hospital outpatient services.

Oxaliplatin is a chemotherapy drug used to treat colorectal cancer. During our audit period
(calendar year (CY) 2005), Medicare required hospital outpatient departments to bill one service
unit for every 5 milligrams of oxaliplatin administered.

National Government Services, Inc. (NGS) was the fiscal intermediary for West Virginia in CY
2005. We reviewed 16 payments totaling $489,046 that NGS made to two hospitals in West
Virginia. Each of these payments amounted to less than $50,000 for more than 100 units of
oxaliplatin.


 Show Desktop.scf
OBJECTIVE

Our objective was to determine, for selected payments, whether hospitals billed NGS for the
correct number of service units of oxaliplatin.

SUMMARY OF FINDING

For all 16 payments reviewed, totaling $489,046, the two hospitals billed NGS for the incorrect
number of service units of oxaliplatin. As a result, the hospitals received overpayments totaling
$433,112 during CY 2005. These overpayments occurred primarily because the hospitals did not
update their systems following a change in Medicare billing guidance.

RECOMMENDATION

We recommend that NGS recover the $433,112 in overpayments to the hospitals.

NATIONAL GOVERNMENT SERVICES COMMENTS

In written comments on our draft report, NGS stated that it complied with our recommendation
by recouping the overpayments from the providers. NGS’s comments appear in their entirety as
the Appendix.




                                                i
                                                 TABLE OF CONTENTS 


                                                                                                                          Page



INTRODUCTION.............................................................................................................1



      BACKGROUND ........................................................................................................1 

          Medicare Fiscal Intermediaries.........................................................................1 

          Outpatient Prospective Payment System ..........................................................1 

          Oxaliplatin.........................................................................................................1         

          National Government Services .........................................................................1 


      OBJECTIVE, SCOPE, AND METHODOLOGY ......................................................2 

          Objective ...........................................................................................................2        

          Scope.................................................................................................................2       

          Methodology .....................................................................................................2            


FINDING AND RECOMMENDATION........................................................................3 


      MEDICARE REQUIREMENTS................................................................................3                        


      INCORRECT NUMBER OF SERVICE UNITS BILLED ........................................3 


      RECOMMENDATION ..............................................................................................4                


      NATIONAL GOVERNMENT SERVICES COMMENTS…..……………………..4 


APPENDIX

      NATIONAL GOVERNMENT SERVICES COMMENTS




                                                                   ii
                                              INTRODUCTION 


BACKGROUND

Pursuant to Title XVIII of the Social Security Act, the Medicare program provides health
insurance for people age 65 and over and those who are disabled or have permanent kidney
disease. The Centers for Medicare & Medicaid Services (CMS) administers the program.

Medicare Fiscal Intermediaries

CMS contracts with fiscal intermediaries to, among other things, process and pay Medicare
Part B claims submitted by hospital outpatient departments. The intermediaries’ responsibilities
include determining reimbursement amounts, conducting reviews and audits, and safeguarding
against fraud and abuse. 1

Outpatient Prospective Payment System

Pursuant to the Balanced Budget Act of 1997, P.L. No. 105-33 § 4523, Social Security Act,
§ 1833, 42 U.S.C. § 1395l, CMS implemented an outpatient prospective payment system (OPPS)
for hospital outpatient services. The OPPS applies to services furnished on or after August 1,
2000.

Under the OPPS, Medicare pays for services on a rate-per-service basis using the ambulatory
payment classification group to which each service is assigned. The OPPS uses the Healthcare
Common Procedure Coding System (HCPCS) to identify and group services into an ambulatory
payment classification group.

Oxaliplatin

Oxaliplatin is a chemotherapy drug used to treat colorectal cancer. During our audit period
(calendar year (CY) 2005), Medicare required hospital outpatient departments to bill one service
unit for every 5 milligrams of oxaliplatin administered.

National Government Services

National Government Services, Inc. (NGS) was the fiscal intermediary for West Virginia in CY
2005. During that period, the fiscal intermediary made a total of 1,466 payments to hospitals in
West Virginia and Virginia for claims containing oxaliplatin.




1
 Section 911 of the Medicare Prescription Drug, Improvement, and Modernization Act of 2003, P.L. No. 108-173 §
911, Social Security Act § 1842, 42 U.S.C. § 1395u, requires CMS to transfer the functions of fiscal intermediaries
to Medicare administrative contractors by October 2011.



                                                         1


OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine, for selected payments, whether hospitals billed NGS for the
correct number of service units of oxaliplatin.

Scope

We reviewed 16 payments totaling $489,046 that NGS made to two hospitals for oxaliplatin
during CY 2005. Each of these payments amounted to less than $50,000. 2

We did not review NGS’s internal controls applicable to the 16 payments because our objective
did not require an understanding of controls over the submission and processing of claims. Our
review allowed us to establish reasonable assurance of the authenticity and accuracy of the data
obtained from the National Claims History file, but we did not assess the completeness of the
file.

We conducted fieldwork from January through April 2009. Our fieldwork included contacting
NGS, located in Indianapolis, Indiana, and the two hospitals that received the 16 payments.

Methodology

To accomplish our objective, we:

       		 reviewed applicable Medicare laws, regulations, and guidance;

       		 used CMS’s National Claims History file to identify the Medicare fiscal intermediaries
           that, during CY 2005, processed outpatient claims with a paid amount of less than
           $50,000 and a utilization level of 100 units or more of oxaliplatin;

       		 selected for review 16 outpatient claims paid by NGS in West Virginia with a paid
           amount of less than $50,000 and a utilization level of 100 units or more of oxaliplatin; 3

       		 contacted the two hospitals that received the 16 payments to determine whether the
           service units were billed correctly and, if not, why the service units were billed
           incorrectly; and

       		 confirmed with NGS that overpayments occurred and refunds were appropriate.



2
 We limited our review to payments of less than $50,000 because payments of $50,000 or more are part of other
audits.
3
    For materiality purposes, we excluded payments for claims with 100 or fewer units of oxaliplatin.



                                                            2


We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                                FINDING AND RECOMMENDATION

For all 16 payments reviewed, totaling $489,046, the two hospitals billed NGS for the incorrect
number of service units of oxaliplatin. As a result, the hospitals received overpayments totaling
$433,112 during CY 2005. These overpayments occurred primarily because the hospitals did not
update their systems following a change in Medicare billing guidance.

MEDICARE REQUIREMENTS

Section 9343(g) of the Omnibus Budget Reconciliation Act of 1986, P.L. No. 99-509, requires
hospitals to report claims for outpatient services using HCPCS codes. CMS’s “Medicare Claims
Processing Manual,” Pub. No. 100-04, chapter 4, section 20.4, states: “The definition of service
units . . . is the number of times the service or procedure being reported was performed.” In
addition, chapter 1, section 80.3.2.2, of this manual states: “In order to be processed correctly
and promptly, a bill must be completed accurately.”

For outpatient services furnished before July 1, 2003, CMS instructed hospitals to bill for
oxaliplatin using HCPCS code J3490. The service unit for that code was 0.5 milligrams.

Through CMS Transmittal A-03-051, Change Request 2771, dated June 13, 2003, CMS
instructed hospital outpatient departments to bill for oxaliplatin using HCPCS code C9205 for
services furnished on or after July 1, 2003. 4 The description for HCPCS code C9205 was
“Injection, oxaliplatin, per 5 mg.” Therefore, for every 5 milligrams of oxaliplatin administered
to a patient, hospital outpatient departments should have billed Medicare for one service unit
during our audit period. 5

INCORRECT NUMBER OF SERVICE UNITS BILLED

During CY 2005, the two hospitals billed NGS for the incorrect number of service units on all 16
claims reviewed and, as a result, received overpayments totaling $433,112:

    		 For 14 overpayments totaling $389,704, one hospital billed 10 times the correct number
        of service units for oxaliplatin furnished to Medicare beneficiaries.

4
 CMS notified hospitals to continue using HCPCS code C9205 for oxaliplatin services furnished in 2004 and 2005
(68 Fed. Reg. 63398, 63488 (Nov. 7, 2003); 69 Fed. Reg. 65682, 66104 (Nov. 15, 2004)).
5
 CMS instructed hospitals to bill for oxaliplatin using HCPCS code J9263 for services furnished on or after January
1, 2006 (70 Fed. Reg. 68516, 68632 (Nov. 10, 2005); CMS Transmittal 786, Change Request 4250 (Dec. 16, 2005)).
The service unit for that code is 0.5 milligram.



                                                        3


   		 For 2 overpayments totaling $43,408, the second hospital billed approximately 10 times
       the correct number of service units for oxaliplatin furnished to Medicare beneficiaries.

In both instances, rather than billing one service unit for every 5 milligrams of oxaliplatin
administered, as Medicare required, hospitals billed one service unit for every 0.5 milligrams
administered.

The overpayments occurred primarily because the hospitals did not update their systems
following a change required by CMS Transmittal A-03-051.

RECOMMENDATION

We recommend that NGS recover the $433,112 in overpayments to the hospitals.

NATIONAL GOVERNMENT SERVICES COMMENTS

In written comments on our draft report, NGS stated that it complied with our recommendation
by recouping the overpayments from the providers. NGS’s comments appear in their entirety as
the Appendix.




                                                4


APPENDIX 

                                                                                                               Page 1 of2

 APP
 AP
 APPENDIX:
    P EN
      ENDIX:
         DIX: NATIONAL
              NATIO
              NA TIONA
                    NALL GOVERNMENT
                         GOVERNMEN
                         GOVERNM ENT
                                   T SERVICES COMMENTS
                                              COMMEN TS 





4iiNltional~
4iiNltional~
 ~

  "'   .....
     servICeS
                                                                                     M e dicare
                                                                                     Medicare
  -"""""""'­
  9y\'_ ~ VarI! 13221-4846




 July 21, 2009
 July

 Mr. Pc~ J.
 Mr.        J. Barbera
               Barbera 

 Office of A udit
             udit Services 

 61 Forsy th Street, S.W., Suite 3T41
 61                              3T41 

 Atlanta, GA 30303 


 Re: NGS Response to DIG audit A..{)4-()9-06104
                               A..{)4-()9-061104 "Review of Outpatient Payments
                               A..{)4-()9-06                           Paym
                                                                       Pay            OxalipJaa tin in
                                                                           m ents for OxalipJatin
                                                                                      OxalipJ
 West VirginIa....
      VirginIa ....

 Dear Mr. Barbera:

       etterr is in response to the draft report A-04-09-06104. entitled " Review
 This letter
      lette                                                                Review of
                                                                                  o f Medicare Outpatient
 Payments for Oxanplatin in west Virginia",
 Payments                             Virginia" ,

          latin is a chemotherapy drug used to
 Oxaliplatin
 Oxalipl
 Oxalip                                         t o treat colorectal cancer. During
                                                                             During the audit period, (calendar
 year (0') 2005), Medicare required
                                 req uired hospital outpatient    epartments to bill one service unit for every 5
                                                    outpatien t ddepartments
 m illig
 milligrams
   illigrrams of Oxaliplalin
                   Oxalipla
                   Oxaliplalin
                            lin administered. National Government Services was the fiscal intermediary for     for
 West Virginia during this review period.

  urinn g this period, a total of 16
 Duri
 During                            16 payments
                                      pa yments were rev iewed                    totaliing $489.046.
                                                           iewed on two hospitals totaling
                                                                                  total
 According
 Accor
 Acco r ding to your  finn dings, the hosp
                yo ur findings,
                      fi              h osp itals
                                            itals received overpayments totaling
                                                                        totaling $433,112
                                                                                 $433,11
                                                                                 $433, 1122 during CY 2005.
                                                                                                      2005.
 These overpayments
       overpaym
       overpay ments 0CCUl"I"ed primarily
                                prima
                                primaril
                                     rilyy because the hospitals did not update their systems
                                                                                      system
                                                                                      sys temss following a
 chann ge in Medicare guidance.
 cha
 change

 Your   reco
         ecomme   ndation is that NGS
 Yo ur recommendation
               mmendation         N GS re.:oVeT
                                       re.:oV
                                        e.:oVeT       112 in overpayments made to these hospitals,
                                             eT $433, 112                                  hospita
                                                                                           hosp itals,
                                                                                                   ls,
        ha s complied with you r request and as of 4/30/00 has recouped a total
 ?\'GS has                                                                tottal of 5433, 112
                                                                          to                  from these
                                                                                          112 from
 p rovide
   rov
    ovid
       idee rs,
            rs ,

 You may s ubmit
           ub mit any additional questions
                                 q uestions and/or
                                            and/o r con
                                                    con ccrru to the NCS Medicare
                                                                         Medicarr e mailbox; 

                                                                         Medica
 op-medicare@!anthem,com. 





 Mr:-
 Mr  Oavid CrOwley 

 Mr:-Oavid
   :-O
 Stalf Vioe President
            Presidd ent 

            Presi
                                                Page 2of2




Claims Management

cc; 	 Pam Glenn. Part A/RHHI Claims Director,
     Sandra Logan. Claims Manager
